             DEPARTMENT OF HEALTH AND HUMAN SERVICES                               Office of Inspector General
                                                                                    Office of Audit Services

                                                                                         REGION IV
                                                                             61 Forsyth Street, S.W., Suite 3T41
                                        NOV 2 5 2008                              Atlanta, Georgia 30303




Report Number: A-04-08-00038

Mr. Steve Bishop
Director of Finance
CIGNA Government Services
Two Vantage Way
Nashville, Tennessee 37228

Dear Mr. Bishop:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of
Inspector General (DIG), final report entitled "Audit ofCIGNA Government Services'
Unaudited Multi-Carrier System Forward Funding Costs for Fiscal Year 2003." We will
forward a copy of this report to the HHS action official noted on the following page for
review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters
reported. We request that you respond to this official within 30 days from the date of this
letter. Your response should present any comments or additional information that you
believe may have a bearing on the final determination.

Pursuant to the principles ofthe Freedom ofInformation Act, 5 U.S.c. § 552, as amended
by Public Law 104-231, DIG reports generally are made available to the public to the
extent the information is not subject to exemptions in the Act (45 CFR part 5).
Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me,
or contact Eric Bowen, Audit Manager, at (404) 562-7789 or through e-mail at
Eric.Bowen@oig.hhs.gov. Please refer to report number A-04-08-00038 in all
correspondence.

                                              Sincerely,



                                              Peter J. Barbera
                                              Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 - Steve Bishop


Direct Reply to HHS Action Official:

Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




AUDIT OF CIGNA GOVERNMENT
   SERVICES’ UNAUDITED
   MULTI-CARRIER SYSTEM
FORWARD FUNDING COSTS FOR
      FISCAL YEAR 2003




                    Daniel R. Levinson
                     Inspector General

                     November 2008
                     A-04-08-00038
                    Office of Inspector General
                                     http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS programs
and operations. These assessments help reduce waste, abuse, and mismanagement and promote
economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
Specifically, these evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness in departmental programs. To promote impact, the
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of OI lead to criminal convictions, administrative
sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG’s internal operations. OCIG imposes program exclusions and civil monetary penalties on
health care providers and litigates those actions within HHS. OCIG also represents OIG in the
global settlement of cases arising under the Civil False Claims Act, develops and monitors
corporate integrity agreements, develops compliance program guidances, renders advisory
opinions on OIG sanctions to the health care community, and issues fraud alerts and other
industry guidance.
                              EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act established the Medicare program. The Centers
for Medicare & Medicaid Services (CMS) administers the Medicare program through
contractors, including Part B carriers that process and pay Medicare claims. Contracts
between CMS and the Medicare contractors define the functions to be performed by the
contractors and provide for the reimbursement of allowable administrative costs incurred
in the processing of Medicare claims.

Following the close of each fiscal year (FY), contractors submit to CMS a Final
Administrative Cost Proposal (FACP) which reports the Medicare administrative costs
incurred during the year. The cost proposal and supporting data provide the basis for the
CMS contracting officer and contractor to negotiate a final settlement of allowable
administrative costs.

CIGNA Government Services (CIGNA) has a contract with CMS and serves as a Part B
carrier processing Medicare Part B claims. As of FY 2006, a portion of CIGNA’s FY
2003 FACP costs had not been audited by CMS’s independent auditor. CMS requested
that the Office of Inspector General review CIGNA’s unaudited Multi-Carrier System
(MCS) forward funding costs to finalize the FY 2003 FACP. The unaudited MCS
forward funding costs totaled $3,479,079 and included salaries, outside technical
services, training costs, software licensing, and various data processing and computer
services costs.

OBJECTIVE

Our objective was to determine whether the unaudited MCS forward funding costs on
CIGNA’s FY 2003 FACP were allowable for Federal reimbursement.

SUMMARY OF FINDING

The $3,479,079 in unaudited MCS forward funding costs was adequately supported, was
in accordance with contract provisions, and was therefore allowable for Federal
reimbursement.

Although we considered the costs to be adequately supported, we noted one concern that
warrants CIGNA’s attention. Contrary to CIGNA corporate policy, CIGNA management
did not always sign employee timesheets that indicated the employee’s presence on the
job. CIGNA allowed the payroll department to accept verbal approvals instead of written
approvals by managers. Our tests did not disclose any evidence of improper or
unsupported salary costs charged to the contract. However, the failure to enforce proper
written approval by management is an internal control weakness that could result in
improper claims for Federal reimbursement.




                                            i
RECOMMENDATION

We recommend that CIGNA follow its existing policy and ensure that supervising
managers sign all employee timesheets.

AUDITEE COMMENTS

In written comments on the draft report, CIGNA agreed that, in some cases, managers
had not signed employee timesheets and payroll had accepted verbal approvals from
managers. Although our review found no evidence of improper salary costs, CIGNA
recognized that this non-compliance with policy indicated a potential internal control
weakness. CIGNA identified actions it has taken since the audit period that should
alleviate concerns regarding this potential internal control weakness. CIGNA’s
comments are included in their entirety as the Appendix.




                                            ii
                                              TABLE OF CONTENTS

                                                                                                                            Page

INTRODUCTION...........................................................................................................1

     BACKGROUND ........................................................................................................1

     OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................1
       Objective ..............................................................................................................1
       Scope.....................................................................................................................2
       Methodology .........................................................................................................2

FINDING AND RECOMMENDATION......................................................................3

     RECOMMENDATION ..............................................................................................3

     AUDITEE COMMENTS............................................................................................3

APPENDIX

     AUDITEE COMMENTS




                                                                iii
                                    INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act established the Medicare program. The Centers
for Medicare & Medicaid Services (CMS) administers the Medicare program through
contractors, including Part B carriers that process and pay Medicare claims. Contracts
between CMS and the Medicare contractors define the functions to be performed by the
contractors and provide for the reimbursement of allowable administrative costs incurred
in the processing of Medicare claims.

Following the close of each fiscal year (FY), contractors submit to CMS a Final
Administrative Cost Proposal (FACP) which reports the Medicare administrative costs
incurred during the year. The cost proposal and supporting data provide the basis for the
CMS contracting officer and contractor to negotiate a final settlement of allowable
administrative costs.

CIGNA Government Services (CIGNA) has a contract with CMS and serves as a Part B
carrier processing Medicare Part B claims. As of FY 2006, a portion of CIGNA’s FY
2003 FACP costs had not been audited by CMS’s independent auditor. CMS requested
that the Office of Inspector General review CIGNA’s unaudited Multi-Carrier System
(MCS) forward funding costs to finalize the FY 2003 FACP. The unaudited MCS
forward funding costs totaled $3,479,079 and included salaries, outside technical
services, training costs, software licensing, and various data processing and computer
services costs.

In FY 2007 CMS issued CMS Manual System Pub. 100-20 Change Request 5424 to
enhance the Multi-Carrier System. CMS implemented this system enhancement to
prevent duplicate payments when the system made a full claim adjustment. CMS did not
provide additional funding for contractor training or application as part of this change
request. Rather, CMS required the contractors to use their existing budgets to perform
the tasks. Accordingly, CIGNA’s costs were covered through forward funding.

CMS personnel described forward funding as funds that are obligated in one year, but
with prior approval, are used in future years. The Medicare Financial Management
Manual states that forward funding “. . . shall include the outstanding costs to be incurred
for CMS-approved items for which funding has been received, but the services extend
into the subsequent FY.” As these costs are incurred, they are reported in the appropriate
category and the forward funding balance is reduced by the equivalent amount.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the unaudited MCS forward funding costs on
CIGNA’s FY 2003 FACP were allowable for Federal reimbursement.



                                             1
Scope

We reviewed $3,479,079 in unaudited MCS forward funding costs budgeted for and
applied to the period October 1, 2002, through September 30, 2003.

To achieve our objective, it was not necessary to review CIGNA’s overall internal control
structure. We limited our review of internal controls to those controls impacting the
charging and recording of MCS forward funding costs to the FACP, including payroll
system controls, cost allocation controls, and controls over allocating computer operating
costs. We also reviewed the FY 2003 audit report issued by CIGNA’s independent
auditor.

We conducted fieldwork at CIGNA’s office in Nashville, Tennessee from November
2007 through April 2008.

Methodology

To accomplish our objective, we:

       •    coordinated our review with CMS officials and reviewed related correspondence
            between CMS and CIGNA, including the CMS Change Request 5424;

       •    reviewed applicable Medicare laws, regulations, and guidelines applicable to the
            Federal Acquisition Regulations and CIGNA’s contract with CMS;

       •    reviewed the FY 2003 independent auditor’s report, noting any administrative
            cost findings and any internal control weaknesses;

       •    reconciled the $3,479,079 unaudited forward funding costs to CIGNA’s
            accounting records and the FY 2003 independent auditor’s report;

       •    interviewed CIGNA personnel to obtain an understanding of CIGNA’s cost
            allocation system, its payroll system, its job order costing system, and related
            policies and procedures;

       •    judgmentally selected 72 salary transactions totaling $157,049 for review and
            traced the costs to supporting paystubs, timesheets, and personnel records; and

       •    judgmentally selected 35 non-salary 1 transactions totaling $1,948,712 for review
            and traced the costs to supporting documents.




1
    Non-salary costs included training, software licensing, computer usage, and other miscellaneous costs.


                                                        2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.

                       FINDING AND RECOMMENDATION

The $3,479,079 in unaudited MCS forward funding costs was adequately supported, was
in accordance with contract provisions, and was therefore allowable for Federal
reimbursement.

Although we considered the costs to be adequately supported, we noted one concern that
warrants CIGNA’s attention. Contrary to CIGNA corporate policy, CIGNA management
did not always sign employee timesheets that indicated the employee’s presence on the
job. CIGNA allowed the payroll department to accept verbal approvals instead of written
approvals by managers. In discussions, CIGNA agreed that, in some cases, the managers
did not sign the timesheets.

Our tests did not disclose any evidence of improper or unsupported salary costs charged
to the contract. However, the failure to enforce proper written approval by management
is an internal control weakness that could result in improper claims for Federal
reimbursement.

RECOMMENDATION

We recommend that CIGNA follow its existing policy and ensure that supervising
managers sign all employee timesheets.

AUDITEE COMMENTS

In written comments on the draft report, CIGNA agreed that, in some cases, managers
had not signed employee timesheets and payroll had accepted verbal approvals from
managers. Although our review found no evidence of improper salary costs, CIGNA
recognized that this non-compliance with policy indicated a potential internal control
weakness. CIGNA identified actions it has taken since the audit period that should
alleviate concerns regarding this potential internal control weakness. CIGNA’s
comments are included in their entirety as the Appendix.




                                            3
APPENDIX
APPENDIX
 Page 1 of 2
APPENDIX
 Page 2 of 2
